           Smithsonian Institution
           Office of the Inspector General
                                                  Information Security Practices
           In Brief                               Report Number A-07-08, March 31, 2008



Why We Did This Evaluation            What We Found
The Federal Information Security      While progress has been made in complying with information security
Management Act of 2002                requirements, additional work remains to ensure adequate controls are in place
(FISMA) directs the Office of the     and operating effectively. Specifically, we found that:
Inspector General to annually
evaluate the information security     • The Institution’s certification and accreditation process did not identify all
program of the Institution. The         major and minor systems in accordance with National Institute of Standards
Institution voluntarily complies        and Technology and FISMA requirements. Specifically, while management has
with FISMA requirements                 certified and accredited portions of the Security Management System, it did
because it is consistent with its       not include other associated sub-systems and components. In addition,
strategic goals. During this year’s     management did not include or address other Institution information systems
review, we assessed (1) the             in any of the Institution’s system security plans.
effectiveness of the Institution’s
security program, (2) the             • The Office of the Chief Information Officer (OCIO) did not centrally track,
Institution’s compliance with           review, and consolidate system plan of action and milestones (POA&M)
FISMA guidelines, (3) the security      activities into the Institution-wide POA&M on a quarterly basis in accordance
of the Human Resources                  with Institution policy. While OCIO did report an Institution-wide POA&M
Management System and ID and            to OMB on a quarterly basis, the submission did not include or consolidate all
Badging, C-Cure Central, and            system POA&M items. Moreover, program officials did not consistently report
Central Monitoring Systems, and         the status of findings and recommendations reported in system POA&Ms to
(4) progress made in correcting         the CIO on a regular basis.
previously reported information
security weaknesses.                  • Management did not ensure results of annual security control testing were
                                        adequately documented and weaknesses were included in related POA&Ms for
What We Recommended                     tracking and correction. Specifically, OCIO has not developed and
                                        documented a policy or procedures specifying how management should
We made four recommendations
                                        determine what controls to test and what minimum documentation should be
to ensure that controls over major
                                        produced to support testing. A lack of adequate documentation to support the
and minor systems are identified,
                                        results of annual testing diminishes management’s assurance that controls were
documented, and implemented;
                                        adequately tested and that conclusions based on test results were appropriate.
system sponsors report their
                                        In addition, a lack of appropriate documentation of test results increases the
progress on remediating security
                                        risk that identified weaknesses will not be included in the system POA&M for
weaknesses and that system
                                        tracking corrective actions.
specific POA&M activities are
consolidated in the agency-wide
                                      We again note that the Institution’s decentralized IT environment makes the
POA&M; and policies and
                                      implementation and enforcement of policies and procedures limited or
procedures for conducting annual
                                      inconsistent. Without the centralization of IT operations and the assignment of
security control testing are
                                      responsibility within OCIO for ensuring Institution policy and procedures are
developed, documented, and
                                      being followed, management cannot ensure adequate controls are in place.
implemented.

Management concurred with the
report’s findings and
recommendations and has                For additional information or a copy of the full report, contact the Office of
planned actions that will resolve      the Inspector General at (202) 633-7050 or visit http://www.si.edu/oig.
all our recommendations.
